CERTIFICATE OF SERVICE
NO. 20-1254
Padma Rao
Petitioner,
v.
Midland Trust Company
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the PADMA
RAO PETITION FOR REHEARING, by mailing three (3) true and correct copies of the same by Fedex 2Day, prepaid for deliveryto the following address.
Mark R. Singler
FMS Law Group LLC
200 West Monroe Street, Suite 750
Chicago, IL 60606
(312) 332-6381
mark.singler@fmslawgroup.com
Counsel for Midland Trust Company

Lucas DeDeus

June 11, 2021
SCP Tracking: Steigmann-Supreme Court Bar #313948-Cover Tan

